                                              UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


AUD-IT-IB-13-04                                  Office of Audits                                  November 2012




      Audit of the Broadcasting Board of
    Governors Information Security Program




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                                              UNCLASSIFIED
                                                                 United States Department of State
                                                                 and the Broadcasting Board of Governors

                                                                 Office of Inspector General



                                             PREFACE


        This report is being transmitted pursuant to the Inspector General Act of 1978, as
amended, and Section 209 of the Foreign Service Act of 1980, as amended. It is one of a series
of audit, inspection, investigative, and special reports prepared as part of the Office of Inspector
General's (OIG) responsibility to promote effective management, accountability, and positive
change in the Department of State and the Broadcasting Board of Governors.


        In accordance with the Federal Information Security Management Act of 2002 (FISMA),
OIG performed an audit of the Broadcasting Board of Governors Information Security Program
for FY 2012. To perform this review, OIG contracted with the independent public accountant
Williams, Adley & Company-DC, LLP. The management letter is based on interviews with
employees and officials of relevant agencies and institutions, direct observation, and a review of
applicable documents. The management letter contains identified weaknesses in information
security that did not meet the criteria for inclusion in the annual FISMA report but require
management action.


        The independent public accountant identified weaknesses in security training and the
contingency planning process.


        OIG evaluated the nature, extent, and timing of the independent public accountant's
work; monitored progress throughout the audit; reviewed supporting documentation; evaluated
key judgments; and performed other procedures      as   appropriate. OIG concurs with the findings,
and the recommendations contained in the management letter were developed based on the best
knowledge available and d�scussed in draft form with those individuals responsible for
implementation. OIG's analysis of management's response to the recommendations has been
incorporated into the report. OIG trusts that this report will result in more effective, efficient,
and/or economical operations.


        I express my appreciation to all of the individuals who contributed to the preparation of
this report.




                                          Harold W. Geisel
                                          Deputy Inspector General
� l f � 11 WILLIAMS
l i j. 1 ADLEY


              Audit of the Broadcasting Board of Governors Information Security Program




November 7, 2012


Office of Inspector General
U.S. Department of State
Washington, DC


Williams, Adley & Company-DC, LLP has performed an audit of the Broadcasting Board of
Governors' (BBG) Information Security Program.                       We audited the BBG compliance with the
Federal Information Security Management Act, Office of Management and Budget requirements
and National Institute of Standards and Technology standards.                            We performed this audit under
Contract No. SAQMMA10F2159. The audit was designed to meet the objectives described in the
report.


We conducted this performance audit in accordance with Government Auditing Standards, issued
by the Comptroller General of the United States. We communicated the results of our audit and the
related findings and recommendations to the U.S. Department of State Office oflnspector General.


We appreciate the cooperation provided by BBG personnel during the audit.




                                       WILLIAMS, ADLEY & COMPANY-DC, LLP
                                Certified Public Accountants I Management Consultants
          1030 15th Street, NW, Suite 350 West   •   Washington, DC 20005     •   (202) 371-1397   •   Fax: (202) 371-9161
                                                     www.williamsadley .com
                                        UNCLASSIFIED

____________________________________________________________________________________________
Acronyms

AC                Access Control
AD                Windows Active Directory
AT                Awareness and Training
BBG               Broadcasting Board of Governors
CIO               Chief Information Officer
CM                Configuration Management
DHS               Department of Homeland Security
FIPS              Federal Information Processing Standards
FISMA             Federal Information Security Management Act
GAGAS             Generally Accepted Government Auditing Standards
GAO               Government Accountability Office
IT                information technology
NIST              National Institute of Standards and Technology
OCB               Office of Cuba Broadcasting
OIG               Office of Inspector General
OMB               Office of Management and Budget
PM                Program Management
POA&M             Plans of Action and Milestones
PS                Personnel Security
SP                Special Publication
US-CERT           United States Computer Emergency Response Team




                                        UNCLASSIFIED
                                                           UNCLASSIFIED


                                                     TABLE OF CONTENTS

Executive Summary ........................................................................................................................ 1
Background ..................................................................................................................................... 4
Objective ....................................................................................................................................... 4
Results of Audit .............................................................................................................................. 4
Finding A. Security Standards and Procedures Need To Be Implemented and Enforced ............. 4
Finding B. Chief Information Officer Lacks Compliance Enforcement Authority ....................... 6
Finding C. User Account Management Controls Need Improvement ........................................... 7
Finding D. Security Incidents Are Not Timely Reported to the United States Computer
          Emergency Readiness Team ......................................................................................... 8
Finding E. Compliance With Security Awareness Training Program Is Not Strictly Enforced.... 9
Finding F. Plans of Action and Milestones Are Not Properly Completed .................................. 10
Finding G. Remote Access to the Network Is Not Properly Managed and Controlled ............... 12
Finding H. System Inventory Management Process Needs To Be Implemented ........................ 13
Finding I. Enterprise-Wide and System-Specific Contingency Plans Do Not Exist ................... 14
List of Current Year Recommendations ....................................................................................... 16
A.Scope and Methodology............................................................................................................ 18
B. Followup of Recommendations From the FY 2011 Evaluation of the Broadcasting Board of
          Governors Information Security Program .................................................................. 22
C. Broadcasting Board of Governors Response ........................................................................... 25




                                                           UNCLASSIFIED
                                           UNCLASSIFIED


                                       Executive Summary

        In accordance with the Federal Information Security Management Act of 2002
(FISMA), 1 the Office of Inspector General (OIG) contracted with Williams, Adley & Company,
LLP (referred to as “we” in this report), to perform an independent audit of the Broadcasting
Board of Governors (BBG) Information Security Program’s compliance with Federal laws,
regulations, and standards established by FISMA, the Office of Management and Budget
(OMB), and the National Institute of Standards and Technology (NIST). Additionally, the
results are designed to assist OIG in providing responses to the Department of Homeland
Security (DHS) FY 2012 Inspector General Federal Information Security Management Act
Reporting Metrics, dated March 6, 2012.

        We reviewed BBG’s remedial actions taken to address the FY 2011 reported information
security program control weaknesses identified in OIG’s FY 2011 report Evaluation of the
Broadcasting Board of Governors Information Security Program (AUD/IT/IB-12-15, November
2011). The statuses of the FY 2011 evaluation recommendations are in Appendix B. Since FY
2011, BBG has taken the following steps to improve management controls:

        •   Implemented security tools and procedures to perform routine vulnerability
            assessments across the BBG network.
        •   Developed policies and procedures to limit and manage the use of shared, test,
            and guest user accounts.

        Overall, we found that BBG had continued its efforts to further develop its information
security program. However, we identified control weaknesses that, if exploited, could adversely
affect the confidentiality, integrity, and availability of information and information systems.
Further, we found that BBG had not taken corrective action to remediate all of the control
weaknesses identified in the FY 2011 FISMA report. To improve the information security
program and to bring the program into compliance with FISMA, OMB, and NIST requirements,
BBG should address the control weaknesses discussed.

       BBG did not fully develop security procedures and guidance to govern configuration
management processes, the absence of which may lead to ineffectual systems security and
inconsistent performance. We are recommending that the Chief Information Officer (CIO)
ensure that security configuration standards and procedures are completed, as required by NIST
Special Publication (SP) 800-53, Revision 3. 2

        Although BBG's Information Technology Department provided services and guidelines
to the Office of Cuba Broadcasting (OCB), BBG’s CIO did not possess the authority to enact
consequences for noncompliance with BBG security requirements, potentially exposing BBG’s
network and systems to risks and vulnerabilities. We are recommending that BBG develop and
1Pub. L. No. 107-347, tit. III, 116 Stat. 2946 (2002).
2NIST SP 800-53, Rev. 3, “Recommended Security Controls for Information Systems and Organizations,” Aug.
2009 (updated through May 2010).
                                                     1

                                           UNCLASSIFIED
                                             UNCLASSIFIED


implement policies to require all agencies with systems that connect to the BBG network to
follow established BBG security policies. Further, we are recommending that BBG grant the
CIO the necessary authority to enforce consequences for noncompliance.

        BBG’s user account management controls did not ensure that system access was provided
to only authorized personnel. We observed the following management control deficiencies for
“active” user accounts in the Windows Active Directory 3 (AD): 93 accounts were not used for
more than 90 days, 31 accounts did not require the use of a password, and passwords for 411
accounts were not changed for over 90 days. We are recommending that the CIO ensure that
user accounts are properly configured and maintained in accordance with existing BBG policies.

        One of two security incidents that BBG identified and reported to the United States
Computer Emergency Readiness Team (US-CERT) at DHS was reported three business days
after observation rather than within one business day after observation, as required by US-CERT.
Without timely reporting of security incidents to US-CERT, BBG may adversely impact US-
CERT’s ability to improve the nation’s cybersecurity. We are recommending that the CIO
ensure that BBG Computer Security Incident Management Policy procedures are followed and
security incidents are reported in a timely manner, as required by US-CERT.

        Less than 25 percent of BBG’s personnel completed security awareness training in FY
2011, yet BBG did not sanction employees and contractors who did not complete the annual
security awareness training course. Without the completion of initial and annual security
awareness training, personnel may be unaware of new risks that may compromise the
confidentiality, integrity, and availability of information. We are recommending that the CIO
develop and implement a formal sanction process for personnel who do not successfully
complete required security awareness training.

        Although BBG had implemented revisions to its Plans of Action and Milestones
(POA&M) program, the completed POA&Ms did not consistently provide sufficient detailed
information. Without a robust POA&M program that includes sufficient details for managing
and tracking corrective actions, BBG’s information technology (IT) management may be unable
to properly assess and implement corrective activities and may be unable to prevent security
issues from being resolved in a timely manner. We are recommending that the CIO ensure that
the BBG POA&M program is fully developed to include data elements required by OMB
Memorandum M-02-01. 4

        BBG’s remote access policy allowed users to access the BBG network from personally
owned computers using software provided by BBG. However, BBG had not implemented
procedures to ensure that remote access was granted only to computers that had proper security
safeguards. Without proper policies and procedures that require the use of properly secured
third-party devices, BBG network and systems may be susceptible to the introduction of viruses,

3 Windows Active Directory (AD), a technology created by Microsoft, provides a variety of network services, such
as identification and authentication, directory access, and other network services.
4 OMB Memorandum M-02-01, “Guidance for Preparing and Submitting Security Plans of Action and Milestones,”
Oct. 17, 2001.
                                                       2

                                             UNCLASSIFIED
                                             UNCLASSIFIED


worms, or other malicious code. We are recommending that the CIO implement procedures to
assess the security configurations of third-party devices requesting access to the BBG network
and grant access only to properly configured devices, as required by NIST SP 800-53, Revision
3. 5

        BBG did not implement a process or procedure to fully manage and routinely update its
inventory of IT assets at least annually or when changes were made to its systems. Without a
process to identify, document, and maintain an inventory of major and minor applications, as
well as general support systems, BBG may not have an accurate accounting of its IT assets and
the related system interfaces and underlying support systems. We are recommending that the
CIO create and implement a standardized process to collect information, update the BBG system
inventory and update the general support system’s security plan control, as required by NIST SP
800-53, Revision 3. 6

        BBG did not develop and implement contingency planning and testing policies and
procedures compliant with OMB requirements and requirements contained in NIST SP 800-34,
Revision 1, “Contingency Planning Guide for Federal Information Systems.” Specifically, BBG
did not complete its enterprise-wide and system-specific contingency plans or conduct
contingency tests. Without an effective contingency plan, BBG may be unable to access critical
information and resources and perform mission-critical business functions in the event of an
extended outage and/or disaster. We are recommending that the CIO ensure that contingency
planning policies and procedures be developed and implemented and that personnel responsible
for network and systems recovery complete training and perform periodic testing.

        Although this report contains nine recommendations, we believe the most significant
security deficiencies relate to security standards and procedures (Finding A), compliance
enforcement authority (Finding B), Plans of Action and Milestones (Finding F), and enterprise-
wide and system-specific contingency plans (Finding I).

        In BBG’s November 6, 2012, response (see Appendix C) to this report, BBG concurred
with all of the report’s recommendations. Based on this information, the Office of Inspector
General (OIG) considers each recommendation resolved. BBG’s responses and OIG’s analyses
are presented after each recommendation.




5   NIST SP 800-53, Rev. 3, AC-17, “Remote Access.”
6   NIST SP 800-53, Rev. 3, CM-8, “Information System Component Inventory.”
                                                      3

                                             UNCLASSIFIED
                                              UNCLASSIFIED


                                               Background

        With the passage of FISMA, Congress recognized the importance of information security
to the economic and national security interests of the United States and required each Federal
agency to develop, document, and implement an agency-wide program to provide information
security for the information systems that support the operations and assets of the agency,
including those provided or managed by another agency, contractor, or source. FISMA provides
a comprehensive framework for establishing and ensuring the effectiveness of management,
operational, and technical controls over IT that supports Federal operations and assets, and it
provides a mechanism for improved oversight of Federal agency information security programs.

       To strengthen information system security, FISMA assigns specific responsibilities to
DHS, NIST, OMB, and other Federal agencies. In particular, FISMA requires the head of each
agency to implement policies and procedures to cost effectively reduce IT security risks to an
acceptable level. To ensure the adequacy and effectiveness of information system controls,
FISMA requires agency program officials, chief information officers, senior agency officials for
privacy, and inspectors general to conduct annual reviews of the agency’s information security
program and report the results to DHS.

        On an annual basis, OMB provides guidance with reporting categories and questions to
meet the current year’s reporting requirements. 7 OMB uses responses to its questions to assist in
its oversight responsibilities and to prepare its annual report to Congress on agency compliance
with FISMA.

                                                 Objective
       The objective of this audit was to perform an independent evaluation of BBG’s
information security program and practices for FY 2012, which included testing the effectiveness
of security controls for a subset of systems, as required.

                                             Results of Audit
        Overall, we found that BBG made progress in FY 2012 toward developing its information
security program, but significant challenges remain. BBG needs to address several control
weaknesses as described to bring the information security program into compliance with FISMA,
OMB, and NIST requirements.

Finding A. Security Standards and Procedures Need To Be Implemented and
Enforced
       As first identified during the FY 2010 Review of the Information Security Program at the
Broadcasting Board of Governors (AUD/IT-10-09, November 2009), BBG did not complete the
development of procedures and guidance to govern routine and critical configuration

7   DHS FY 2012 Inspector General Federal Information Security Management Act Reporting Metrics.
                                                       4

                                              UNCLASSIFIED
                                      UNCLASSIFIED


management processes during Fiscal Year 2012, although BBG was in the process of gathering
system information for the development of its standard baseline configurations.

       According to NIST SP 800-53, Revision 3, CM-1, “Configuration Management [CM]
Policy and Procedures,” the organization develops, disseminates, and periodically reviews and
updates:

       a. A formal, documented, configuration management policy that addresses
       purpose, scope, roles, responsibilities, management commitment, coordination
       among organizational entities, and compliance; and

       b. Formal, documented procedures to facilitate the implementation of the
       configuration management policy and associated configuration management
       controls.

        BBG's IT management stated that a lack of human resources hindered their ability to
complete the implementation of the security standards and procedures. BBG’s IT management
further stated that systems were being retired in an effort to improve standardization.

         Without detailed procedures and guidance to govern the performance of routine and
critical configuration management processes, BBG may not be able to effectively secure its
systems, which may lead to the introduction of security weaknesses and inconsistent
performance.

       Recommendation 1. We recommend that the Chief Information Officer ensure that
       security configuration standards and procedures are completed, as required by the
       National Institute of Standards and Technology Special Publication 800-53, Revision 3.

       Management Comments: BBG concurred with the recommendation, stating that it had
       “created and filled a Change Manager Position within TSI’s IT Directorate to address
       configuration standards and procedures.” BBG further stated that through the Change
       Manager’s efforts, “TSI is adopting change management policy and processes consistent
       with Information Technology Information Library standards” and that TSI has acquired
       Microsoft’s System Center Configuration Manager (MS SCCM) for configuration
       management of agency servers and workstations.” According to BBG, configuration
       planning for the MS SCCM implementation is underway; “full production system
       utilization” is expected by March 31, 2013; and the CIO will oversee testing of MS
       SCCM and the development of associated processes.”

       OIG Analysis: OIG considers the recommendation resolved. This recommendation can
       be closed when OIG reviews and approved documentation showing security
       configuration standards and procedures have been developed and implemented.



                                               5

                                      UNCLASSIFIED
                                      UNCLASSIFIED


Finding B. Chief Information Officer Lacks Compliance Enforcement
Authority
       Although BBG's IT Department provided services and guidelines to the Office of Cuba
Broadcasting (OCB), BBG’s CIO did not have the authority to enforce security requirements at
OCB or enact consequences for noncompliance. Instead, OCB maintained responsibility for the
configuration of its systems and the assignment of access to its systems. As a result, BBG had
no assurance that OCB’s systems that connected to the BBG network were configured with
adequate preventative and detective safeguards.

   According to NIST SP 800-53, Revision 3, PM-1, “Information Security Program Plan,” the
organization:

       Develops and disseminates an organization-wide information security program
       plan that provides an overview of the requirements for the security program and a
       description of the security program management controls and common controls in
       place or planned for meeting those requirements.

        NIST SP 800-53, Revision 3, PM-2, “Senior Information Security Officer,” further states
that “the organization appoints a senior information security officer with the mission and
resources to coordinate, develop, implement, and maintain an organization-wide information
security program.”

       OCB, which directs the operations of Radio and TV Martí, reports directly to the BBG
Board of Governors and not to BBG’s CIO. Although BBG’s IT Department provided services
to OCB, as mandated by the Board of Governors, BBG’s CIO cannot enforce its security
requirements because of this reporting structure.

        Without the authority to enforce BBG’s security policies and procedures for all systems
that access the BBG network, BBG’s CIO cannot ensure that security controls are properly
managed and maintained. As a result, systems may operate in the production environment
without appropriate controls or management oversight, exposing BBG’s network and systems to
additional risks and vulnerabilities.

       Recommendation 2. We recommend that the Broadcasting Board of Governors develop
       and implement policies to require all agency entities with systems that connect to the
       Broadcasting Board of Governors network to abide by the security policies and
       requirements established by the Broadcasting Board of Governors Information
       Technology Department and grant the Chief Information Officer the necessary authority
       to enforce consequences for noncompliance.

       Management Comments: BBG concurred with the recommendation, stating that the
       CIO “will attempt to strengthen the IT security controls over all Federal BBG elements,”
       which include the International Broadcasting Bureau, OCB, and the Voice of America,
                                               6

                                      UNCLASSIFIED
                                               UNCLASSIFIED


         which connect to the BBG’s Wide Area Network (WAN). BBG further stated that
         “compensating controls will be put in place to ensure an acceptable risk level” for BBG
         “[i]f full compliance cannot be met” and that the CIO “will continue to assess progress.”

         OIG Analysis: OIG considers the recommendation resolved. This recommendation can
         be closed pending OIG’s review and approval of documentation showing that BBG’s
         policies and procedures require all agency entities with systems that connect to the
         Broadcasting Board of Governors network to abide by the security policies and
         requirements.

Finding C. User Account Management Controls Need Improvement
        As first identified during the FY 2010 review, 8 BBG’s user account management controls
did not ensure that access was provided to authorized personnel only. Although BBG had
implemented new user account management controls in FY 2012, including policies and
procedures restricting the use of guest, test, and shared user accounts, we observed the following
account management control deficiencies: Of 3,551 “active” user accounts in AD, 93 accounts
were not accessed for more than 90 days, 31 accounts did not require the use of a password, and
passwords for 411 accounts were not changed for over 90 days.

        BBG policy9 requires system owners to implement the policy and procedures for
managing access to IT systems, including creating, deleting, and monitoring user accounts and
establishing processes to disable user accounts that have been inactive for 45 days or more. In
respect to password management, BBG policy 10 for all information systems and information
system components requires passwords to be constructed according to set length and complexity
requirements and requires passwords to be changed every 90 days.

        BBG management stated that its previous use of older technology had prevented BBG
from segmenting its users, effectively requiring manual intervention to process exceptions to its
stated policies. Exceptions to the stated policies were granted for user accounts that did not
routinely log in to the network. BBG management also stated that some user accounts were
improperly configured during the migration to Microsoft Office 365. 11

        Without more stringent user account management controls, the risk of unauthorized use
of user accounts and thus unauthorized access to systems, increases significantly. Unauthorized
access to systems may result in the submission of false transactions, improper access to and
dissemination of confidential data, and other malicious activities.



8 AUD/IT-10-09, Nov. 2009.
9 Identification and Authentication Policy, Apr. 1, 2011, revised Mar. 27, 2012.
10 BBG/IBB/VOA Password Policy, Feb. 1, 2011.
11 Microsoft Office 365, a hosted service provided by Microsoft, offers virtual access to Microsoft solutions, such as
email, calendars, Web-based applications, instant messaging, conferencing, and file sharing.
                                                          7

                                               UNCLASSIFIED
                                              UNCLASSIFIED


          Recommendation 3. We recommend that the Chief Information Officer ensure that user
          accounts are properly configured and maintained in accordance with the Broadcasting
          Board of Governors policies. If the Broadcasting Board of Governors determines that
          exceptions to the implemented policies may be necessary, the Broadcasting Board of
          Governors should identify, assess, and document the associated risks. If the Broadcasting
          Board of Governors further determines that the identified risks are acceptable, the
          exceptions should be documented and approved by information technology management.

          Management Comments: BBG concurred with the recommendation, stating that the
          CIO “will review and strengthen IT processes that manage user accounts” and that it
          “strongly believes that the “account irregularities” OIG observed during the audit
          “resulted from temporary transition issues caused by migration of agency mail accounts
          and VPN [virtual private network] token vendors.” BBG stated that it expected the
          recommendation to be complied with by January 31, 2013.”

          OIG Analysis: OIG considers the recommendation resolved. This recommendation can
          be closed with OIG reviews and approved documentation showing that a process has
          been implemented to properly configure and maintain user accounts, including the
          disabling of user accounts that are no longer needed.

Finding D. Security Incidents Are Not Timely Reported to the United States
Computer Emergency Readiness Team
        One of two security incidents that BBG identified and reported to US-CERT at DHS was
not reported in accordance with US-CERT’s reporting requirements. The incident, which
pertained to the identification of malicious code, was not reported within one business day, as
required by US-CERT. Rather, BBG reported the incident three business days after it was
identified.

        The US-CERT Federal Incident Reporting Guidelines and NIST SP 800-61, Revision 1, 12
require the following information:

                                                                                       Reporting Time
     Category          Name                          Description
                                                                                            Frame
     CAT 3           Malicious     Successful installation of malicious                Daily
                     Code          software (e.g., virus, worm, Trojan horse,
                                   or other code-based malicious entity) that          Note: Within one
                                   infects an operating system or application.         (1) hour of
                                   Agencies are NOT required to report                 discovery/detecti
                                   malicious logic that has been successfully          on if widespread
                                   quarantined by antivirus software.                  across agency.


12 NIST   SP 800-61, Rev. 1, “Computer Security Incident Handling Guide,” Mar. 2008.
                                                        8

                                              UNCLASSIFIED
                                            UNCLASSIFIED


       Further, BBG policy 13 requires BBG’s Computer Security Incident Response Team to
categorize and report security incidents in accordance with US-CERT and NIST SP 800-61. 14

       Although the security incident had been properly recorded in BBG’s incident tracking
system, reporting to US-CERT was delayed as BBG conducted its assessment. BBG’s IT
management stated that they were focused on identifying the cause of the problem and
subsequently remediating the identified weakness, which delayed reporting.

       Without timely reporting of security incidents to US-CERT, BBG may adversely impact
US-CERT’s ability to improve the Nation's cybersecurity posture, coordinate cyber information
sharing, and proactively manage cyber risks.

        Recommendation 4. We recommend that the Chief Information Officer ensure that
        procedures as stated within the Broadcasting Board of Governors Computer Security
        Incident Management Policy are followed to ensure that security incidents are properly
        reported, as required by the United States Computer Emergency Readiness Team’s
        Federal Incident Reporting Guidelines.

        Management Comments: BBG concurred with the recommendation, stating that the
        CIO “has taken steps to implement this policy immediately.”

        OIG Analysis: OIG considers the recommendation resolved. This recommendation can
        be closed pending OIG review and approval of documentation showing that security
        incidents are properly reported as required.

Finding E. Compliance With Security Awareness Training Program Is Not
Strictly Enforced
        As first reported in the FY 2010 review, 15 BBG did not sanction employees and
contractors who had not completed the annual security awareness training course. Specifically,
less than 25 percent of BBG personnel completed security awareness training in FY 2011. At
the completion of our onsite verification in July 2012, BBG had just started its annual security
awareness training program to include both online and in-person training. Although 3 months
remained in the fiscal year during which BBG personnel could complete the training,
consequences for noncompliance had not been implemented.

       OMB Memorandum M-12-20, “FY 2012 Reporting Instructions for the Federal
Information Security Management Act and Agency Privacy Management,” Oct. 2, 2012,
requires “all employees to receive annual security and privacy awareness training, and
they must be included as part of [an] agency’s training totals.”

13 Computer Security Incident Management Policy, May 16, 2011, revised Jan. 11, 2012.
14 NIST SP 800-61, Rev. 1, “Computer Security Incident Handling Guide,” Mar. 2008.
15 AUD/IT-10-09, Nov. 2009.

                                                      9

                                            UNCLASSIFIED
                                       UNCLASSIFIED


        Regarding compliance with policies and procedures, NIST SP 800-53, Revision 3,
Personnel Sanctions (PS-8), states, “The organization employs a formal sanctions process
for personnel failing to comply with established information security policies and
procedures.”

        BBG’s IT management stated that compliance with the security awareness training policy
had not been implemented because of concerns about possible disruption of BBG’s mission and
employees’ job responsibilities if user access was restricted. BBG’s IT management further
stated that in-person training presentations had been developed to increase compliance.

       Without the completion of initial and annual security awareness training, personnel may
be unaware of new risks that may compromise the confidentiality, integrity, and availability of
information. As a result, personnel may be unable to recognize and respond appropriately to real
and potential security threats.

       Recommendation 5. We recommend that the Chief Information Officer develop and
       implement a formal sanction process for personnel who do not successfully complete the
       security awareness training, as required by the National Institute of Standards and
       Technology Special Publication 800-53, Revision 3.

       Management Comments: BBG concurred with the recommendation, stating that the
       CIO and BBG’s leadership team “have taken steps to implement strict discipline
       measures effective this year with the current cycle of the IT security awareness training.”
       BBG further stated that on the security awareness training deadline (October 31, 2012),
       TSI’s IT Directorate notified BBG users and their direct supervisors that IT was
       “prepared to disable their computer accounts” if the employees did not complete the
       required training by November 2, 2012. BBG stated that the extension was provided
       because of “potential hardships” caused by Hurricane Sandy. BBG stated its compliance
       rate of 92 percent versus its 2011 rate of 25 percent and stated that “senior management
       has been apprised of the email message sent to impacted employees.”

       OIG Analysis: OIG considers the recommendation resolved. This recommendation can
       be closed pending OIG review and approval of the revised security awareness training
       policy showing the enforcement actions to be taken for noncompliant personnel.

Finding F. Plans of Action and Milestones Are Not Properly Completed
        Although BBG implemented revisions to its POA&M program, the completed POA&Ms
did not consistently provide sufficient detail, such as the resources required to address the
security weaknesses, milestones used to measure progress toward completion, and changes to the
milestones when corrective actions were not completed or were past due.




                                               10

                                       UNCLASSIFIED
                                            UNCLASSIFIED


         OMB Memorandum M-12-20 16 states, “While agencies are no longer required to follow
the exact format prescribed in the POA&M examples in OMB Memorandum 04-25, they must
still include all of the associated data elements in their POA&Ms.”

         Regarding the data elements required in the POA&M, OMB Memorandum M-04-25 17
states that the following information must be included:

        •   Severity and brief description of the weakness.
        •   Identity of the office or organization responsible for resolving the weakness.
        •   Estimated funding and personnel required to resolve the weakness.
        •   Scheduled completion date for resolving the weakness.
        •   Key milestones with completion dates.
        •   Changes to milestones, including new completion dates for the changed milestone.
        •   The source of the weakness (for example, program review, OIG audit, or GAO audit).
        •   Status (for example, ongoing or completed).

     Further, BBG policy 18 requires BBG’s PO&AMs to include the data elements stated in
OMB Memorandum M-02-01. 19

         BBG’s IT management stated that the development of its POA&M program was a “work
in progress” and that the POA&M program had not included “such granular project
management” because of the relatively small number of personnel involved in the remediation
efforts, as well as the frequent meetings held among the responsible personnel.

        Without a robust POA&M program that includes sufficient details for managing and
tracking corrective actions, BBG’s IT management may be unable to properly assess the statuses
of corrective activities. As a result, BBG may encounter delays in the implementation of
corrective actions, preventing security issues from being resolved in a timely manner.
Additionally, IT management may be unable to properly assess and prioritize the resources
required to implement corrective actions.

        Recommendation 6. We recommend the Chief Information Officer ensure that the
        Broadcasting Board of Governors Plans of Action and Milestones program is developed
        in accordance with its policy, which requires the Broadcasting Board of Governors Plans
        of Action and Milestones to include the data elements found in Office of Management
        and Budget Memorandum M-02-01.

        Management Comments: BBG concurred with the recommendation, stating, “The CIO
        will expand on the data elements contained in the POA&M tracking sheet as efforts
16 OMB Memorandum M-12-20, Oct. 2, 2012.
17 OMB Memorandum M-04-25, “FY 2004 Reporting Instructions for the Federal Information Security
Management Act,” Aug. 23, 2004.
18 Information Security Plan of Action and Milestones (POA&M) Policy, May 12, 2010, revised Feb. 9, 2012.
19 OMB Memorandum M-02-01, Oct. 17, 2001.

                                                      11

                                            UNCLASSIFIED
                                          UNCLASSIFIED


          continue to mature internal IT project governance.” BBG further stated that this
          improvement will be reflected on “the March 2013 quarterly cycle of POA&M tracking
          sheets.”

          OIG Analysis: OIG considers the recommendation resolved. This recommendation can
          be closed pending OIG review and approval of documentation showing that POA&Ms
          are being reviewed and updated periodically and that they include the data elements
          required by BBG policy.

Finding G. Remote Access to the Network Is Not Properly Managed and
Controlled
        As first identified during the FY 2010 review, 20 BBG’s remote access policy allowed
users to access the BBG network from personally owned computers using software provided by
BBG. However, BBG had not implemented procedures to ensure that remote access was granted
only to computers that had proper security safeguards.

          NIST SP 800-53, Revision 3, AC-17, “Remote Access,” states the following:

          Control: The organization:

          a. Documents allowed methods of remote access to the information system;
          b. Establishes usage restrictions and implementation guidance for each allowed
          remote access method;
          c. Monitors for unauthorized remote access to the information system;
          d. Authorizes remote access to the information system prior to connection; and
          e. Enforces requirements for remote connections to the information system.

        BBG’s IT management stated that a process had been drafted and a software tool had
been identified that will detect and scan the security settings of computers attempting to access
the BBG network remotely and deny requests from computers with improper safeguards.
However, BBG IT management stated that the tool had not been implemented because of
ongoing changes to the remote access process, as well as the need to direct available resources to
other IT projects.

       Without proper policies and procedures that require the use of properly secured third-
party devices, BBG network and systems may be susceptible to the introduction of viruses,
worms, or other malicious code by such third-party devices.

          Recommendation 7. We recommend that the Chief Information Officer implement
          procedures to assess the adequacy of the security configurations of third-party devices
          that request access to the Broadcasting Board of Governors network and grant access

20   AUD/IT-10-09, Nov. 2009.
                                                  12

                                          UNCLASSIFIED
                                          UNCLASSIFIED


          only to properly configured devices, as required by the National Institute of Standards
          and Technology Special Publication 800-53, Revision 3.

          Management Comments: BBG concurred with the recommendation, stating that the
          CIO would “develop the process and initiate planning and testing of the tool procured to
          assess the adequacy of the security configurations of third-party devices that request
          access (generally through a Virtual Private Network [VPN]) to the BBG network.” BBG
          further stated that access will be granted only to those devices whose configurations are
          deemed sufficient by March 31, 2013.”

          OIG Analysis: OIG considers the recommendation resolved. This recommendation can
          be closed pending OIG review and approval of documentation showing that BBG has
          implemented the process to assess the adequacy of the security configurations of third-
          party devices as described.

Finding H. System Inventory Management Process Needs To Be
Implemented
       As first identified during the FY 2010 review, 21 BBG did not implement a process or
procedures to manage and routinely update its inventory of IT assets at least annually or when
changes were made to its systems. Although BBG had implemented a tool to record its system
inventory, the corresponding process and procedures for developing and maintaining the system
inventory had not been implemented.

        FISMA requires the heads of each agency to develop and maintain an inventory of major
information systems, including major national security systems, operated by or under the
agency’s control and to identify information systems in an inventory, including identifying the
interfaces between each system and all other systems or networks and those not operated by or
under the control of the agency. FISMA further requires the inventory to be updated at least
annually, to be made available to the Comptroller General, and to be used to support information
resources management. Additionally, NIST SP 800-53, Revision 3, CM-8, “Information System
Component Inventory,” requires the following:

          Control: The organization develops, documents, and maintains an inventory of
          information system components that:

          a. Accurately reflects the current information system;
          b. Is consistent with the authorization boundary of the information system;
          c. Is at the level of granularity deemed necessary for tracking and reporting;
          d. Includes [Assignment: organization-defined information deemed necessary to
              achieve effective property accountability]; and
          e. Is available for review and audit by designated organizational officials.

21   AUD/IT-10-09, Nov. 2009.
                                                  13

                                          UNCLASSIFIED
                                            UNCLASSIFIED



        BBG’s IT management stated that the process and procedures for developing and
maintaining the system inventory had not been completed because of a lack of standards for the
system inventory’s information requirements. The lack of standards resulted in a great deal of
variety with the information that had been collected and supplied by system owners, for example,
licensing information and planned retirement dates.

        Without a process to identify, document, and maintain an inventory of major and minor
applications, as well as general support systems, BBG may not have an accurate accounting of its
IT assets and the related system interfaces and underlying support systems. An inaccurate or
incomplete asset inventory may also prohibit BBG from effectively implementing its continuous
monitoring program and practices, including performing vulnerability scans of its assets.
Additionally, critical management processes such as strategic planning, budgeting, system
administration, and resource management may be adversely affected.

        Recommendation 8. We recommend that the Chief Information Officer ensure that the
        Information Technology Director create and implement a standardized process to collect
        information used to develop and subsequently update the Broadcasting Board of
        Governors system inventory and update the general support system’s security plan
        control for CM-8, “Information System Component Inventory,” specifically, the
        organizationally defined frequency of inventory assessments, as required by the National
        Institute of Standards and Technology Special Publication 800-53, Revision 3.

        Management Comments: BBG concurred with the recommendation, stating that it had
        acquired an inventory management software tool and was establishing internal tracking
        processes. BBG further stated that although “significant progress has been made,” full
        implementation was not expected until March 31, 2013, and that the CIO would
        “continue to oversee this effort.”

        OIG Analysis: OIG considers the recommendation resolved. This recommendation can
        be closed pending OIG review and approval of documentation showing that BBG has
        implemented a system inventory process, including standards for collecting information
        used to develop and subsequently update BBG’s system inventory.

Finding I. Enterprise-Wide and System-Specific Contingency Plans Do Not
Exist
       As first identified during the FY 2010 review, 22 BBG did not develop and implement
contingency planning and testing policies and procedures compliant with OMB and NIST
requirements contained in NIST SP 800 34. 23 Specifically, BBG did not complete its enterprise-
wide and system-specific contingency plans or conduct contingency tests.
22AUD/IT-10-09, Nov. 2009.
23NIST SP 800-34, Rev. 1, “Contingency Planning Guide for Federal Information Systems,” May 2010 (last
updated Nov. 11, 2010).
                                                     14

                                            UNCLASSIFIED
                                           UNCLASSIFIED



        NIST SP 800-34, Revision 1, 24 states that information systems are “vital elements” in
most business functions and that “it is critical” that the services provided by these systems be
able to operate effectively without excessive interruption. The NIST guidance 25 further states,
“Contingency planning supports this requirement by establishing thorough plans, procedures,
and technical measures that can enable a system to be recovered as quickly and effectively as
possible following a service disruption.”

        BBG’s IT management stated that although a strategic plan had been developed to
address BBG’s contingency and business resumption needs, resources had not been appropriated
for the development of such policies, procedures, and the related contingency plans because of
ongoing changes to the system architecture and other competing priorities.

         Without an effective contingency plan, which includes periodic testing of the plan’s
reliability, BBG may be unable to access critical information and resources and to perform
mission-critical business functions in the event of an extended outage and/or disaster. As a
result, BBG may be unable to resume operations in an efficient and effective manner should such
an incident occur.

            Recommendation 9. We recommend that the Chief Information Officer ensure that the
            Director of Disaster Recovery and Business Continuity develop and implement
            contingency planning policies and procedures, develop contingency plans for the
            Broadcasting Board of Governors infrastructure (network) and its major systems, provide
            contingency planning training to personnel who are responsible for the recovery of the
            network and systems, perform periodic testing of the Broadcasting Board of Governors
            contingency plans, and update the plan based on lessons learned as required by National
            Institute of Standards and Technology Special Publication 800-34, Revision 1.

            Management Comments: BBG concurred with the recommendation, stating that it
            “agrees to further develop contingency plans and increase investments in offsite systems
            to be used for business continuity”. BBG further stated that “[t]o support and lead this
            effort, the CIO is attempting to fill a Disaster Recovery and Business Continuity Manager
            position. “If full compliance cannot be met,” according to BBG, “compensating controls
            will be put in place to ensure an acceptable risk level for BBG” and the CIO “will
            continue to assess progress.”

            OIG Analysis: OIG considers the recommendation resolved. This recommendation can
            be closed pending OIG review and approval of documentation showing the development
            of contingency planning policies and procedures that include training requirements for
            personnel responsible for the recovery of the network and systems and contingency plans
            for the BBG infrastructure and its major systems.


24   Ibid., p. 1.
25   Ibid., p. 1.
                                                   15

                                           UNCLASSIFIED
                                        UNCLASSIFIED


                        List of Current Year Recommendations
Recommendation 1. We recommend that the Chief Information Officer ensure that security
configuration standards and procedures are completed, as required by the National Institute of
Standards and Technology Special Publication 800-53, Revision 3.

Recommendation 2. We recommend that the Broadcasting Board of Governors develop and
implement policies to require all agency entities with systems that connect to the Broadcasting
Board of Governors network to abide by the security policies and requirements established by
the Broadcasting Board of Governors Information Technology Department and grant the Chief
Information Officer the necessary authority to enforce consequences for noncompliance.

Recommendation 3. We recommend that the Chief Information Officer ensure that user
accounts are properly configured and maintained in accordance with the Broadcasting Board of
Governors policies. If the Broadcasting Board of Governors determines that exceptions to the
implemented policies may be necessary, the Broadcasting Board of Governors should identify,
assess, and document the associated risks. If the Broadcasting Board of Governors further
determines that the identified risks are acceptable, the exceptions should be documented and
approved by information technology management.

Recommendation 4. We recommend that the Chief Information Officer ensure that procedures
as stated within the Broadcasting Board of Governors Computer Security Incident Management
Policy are followed to ensure that security incidents are properly reported, as required by the
United States Computer Emergency Readiness Team’s Federal Incident Reporting Guidelines.

Recommendation 5. We recommend that the Chief Information Officer develop and implement
a formal sanction process for personnel who do not successfully complete the security awareness
training, as required by the National Institute of Standards and Technology Special Publication
800-53, Revision 3.

Recommendation 6. We recommend the Chief Information Officer ensure that the
Broadcasting Board of Governors Plans of Action and Milestones program is developed in
accordance with its policy, which requires the Broadcasting Board of Governors Plans of Action
and Milestones to include the data elements found in Office of Management and Budget
Memorandum M-02-01.

Recommendation 7. We recommend that the Chief Information Officer implement procedures
to assess the adequacy of the security configurations of third-party devices that request access to
the Broadcasting Board of Governors network and grant access only to properly configured
devices, as required by the National Institute of Standards and Technology Special Publication
800-53, Revision 3.

Recommendation 8. We recommend that the Chief Information Officer ensure that the
Information Technology Director create and implement a standardized process to collect
information used to develop and subsequently update the Broadcasting Board of Governors
system inventory and update the general support system’s security plan control for CM-8,
                                              16

                                        UNCLASSIFIED
                                      UNCLASSIFIED


“Information System Component Inventory,” specifically, the organizationally defined frequency
of inventory assessments, as required by the National Institute of Standards and Technology
Special Publication 800-53, Revision 3.

Recommendation 9. We recommend that the Chief Information Officer ensure that the Director
of Disaster Recovery and Business Continuity develop and implement contingency planning
policies and procedures, develop contingency plans for the Broadcasting Board of Governors
infrastructure (network) and its major systems, provide contingency planning training to
personnel who are responsible for the recovery of the network and systems, perform periodic
testing of the Broadcasting Board of Governors contingency plans, and update the plan based on
lessons learned as required by National Institute of Standards and Technology Special
Publication 800-34, Revision 1.




                                             17

                                      UNCLASSIFIED
                                            UNCLASSIFIED




                                                                                              Appendix A
                                    A.Scope and Methodology
        In order to fulfill its responsibilities related to the Federal Information Security
Management Act of 2002 (FISMA), 1 the Office of Inspector General (OIG), Office of Audits,
contracted with Williams, Adley & Company, LLP (referred to as “we” in this appendix), an
independent public accountant, to evaluate the Broadcasting Board of Governors (BBG)
information security program and practices to determine the effectiveness of such programs and
practices for FY 2012. The OIG and Williams, Adley & Company-DC, LLP, held an exit
conference with BBG management on November 7, 2012.

        FISMA requires each Federal agency to develop, document, and implement an agency-
wide program to provide information security for the information systems that support the
operations and assets of the agency, including those provided or managed by another agency or
contractor or another source. To ensure the adequacy and effectiveness of these controls,
FISMA requires the agency inspector general or an independent external auditor to perform
annual reviews of the information security program and to report those results to the Office of
Management and Budget (OMB) and the Department of Homeland Security (DHS). DHS uses
this data to assist in oversight responsibilities and to prepare its annual report to Congress
regarding agency compliance with FISMA.

        We conducted the audit from April through September 2012. In addition, we performed
the audit in accordance with Generally Accepted Government Auditing Standards (GAGAS),
FISMA, OMB, and National Institute of Standards and Technology Special Publication (NIST
SP) guidance. GAGAS requires that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

       We used the following laws, regulations, and policies to evaluate the adequacy of the
controls in place at BBG:

        •   DHS Inspector General FISMA Reporting Metrics. 2
                                                                  3
        •   OMB Memoranda M-02-01, M-04-04, M-06-19, and M-12-20.

1 Pub. L. No. 107-347, tit. III, 116 Stat. 2946, (2002).
2 DHS FY 2012 Inspector General Federal Information Security Management Act Reporting Metrics, dated Mar. 6,
2012.
3 OMB Memorandum M-02-01, “Guidance for Preparing and Submitting Security Plans of Action and Milestones,
Oct. 17, 2001; OMB Memorandum M-04-04, “E-Authentication Guidance for Federal Agencies,” Dec. 16, 2003;
OMB Memorandum M-06-19, “Reporting Incidents Involving Personally Identifiable Information and Incorporating
the Cost for Security in Agency Information Technology Investments,” July 12, 2006; and OMB Memorandum M-
12-20, “FY 2012 Reporting Instructions for the Federal Information Security Management Act and Agency Privacy
Management,” Oct. 2, 2012.
                                                     18

                                            UNCLASSIFIED
                                             UNCLASSIFIED


        •   BBG policies and procedures, such as the BBG Computer Security Incident
            Management Policy.
        •   Federal laws, regulations, and standards, such as FISMA and those contained
                                                   4                            5
            in OMB Circular No. A-130, Revised, and OMB Circular No. A-11.
        •   NIST SPs, Federal Information Systems Processing Publications (FIPS), other
            applicable NIST publications, and industry best practices.

       During our audit, we assessed BBG’s information security program policies, procedures,
and processes in the following areas:

        •   Continuous monitoring management
        •   Configuration management
        •   Identity and access management
        •   Incident response and reporting
        •   Risk management
        •   Security training
        •   Plans of action and milestones
        •   Remote access management
        •   Contingency planning
        •   Contractor systems
        •   Security capital planning

       The audit covered the period October 1, 2011, to September 30, 2012. During the
fieldwork, we took the following actions:

        •   Determined the extent to which the BBG’s information security plans, programs,
            and practices complied with FISMA requirements; applicable Federal laws,
            regulations, and standards; relevant OMB Circular No. A-130, revised; processes
            and reporting requirements included in Appendix III; and NIST and FIPS
            requirements.
        •   Reviewed relevant security programs and practices to report on the effectiveness of
            BBG’s agency-wide information security program in accordance with OMB’s annual
            FISMA reporting instructions. The audit approach addressed the DHS FY 2012
            Inspector General Federal Information Security Management Act Reporting Metrics,
            dated March 6, 2012.
        •   Assessed programs for monitoring of security policy and program compliance and
            responding to security events, for example, unauthorized changes detected by
            intrusion detection systems.
        •   Performed testing of major systems at the discretion of OIG.

4 OMB Circular No. A-130, rev., “Management of Federal Information Resources,” app. III, “Security of Federal
Automated Information Resources,” Nov. 30, 2000.
5 OMB Circular No. A-11, “Preparation, Submission, and Execution of the Budget,” Aug. 2011.

                                                      19

                                             UNCLASSIFIED
                                     UNCLASSIFIED


      •   Assessed the adequacy of internal controls related to the areas reviewed. Control
          deficiencies identified during the review are included in this report.
      •   Evaluated BBG’s remedial actions taken to address the previously reported
          information security program control weaknesses identified in OIG’s Evaluation of
          the Information Security Program at the Broadcasting Board of Governors
          (AUD/IT/IB-12-15, November 2011).

Review of Internal Controls

   We reviewed BBG’s internal controls to determine whether

      •   The organization has established an enterprise-wide continuous monitoring
          program that assesses the security state of information systems that is
          consistent with FISMA requirements, OMB policy, and applicable NIST
          guidelines.
      •   The agency has established and is maintaining a security configuration
          management program that is consistent with FISMA requirements, OMB
          policy, and applicable NIST guidelines.
      •   The agency has established and is maintaining an account and identity
          management program that is generally consistent with NIST and OMB
          FISMA requirements and identifies users and network devices.
      •   The agency has established and is maintaining an incident response and
          reporting program that is consistent with FISMA requirements, OMB policy,
          and applicable NIST guidelines.
      •   The organization has established a risk management program that is consistent
          with FISMA requirements, OMB policy, and applicable NIST guidelines.
      •   The agency has established and is maintaining a security training program that
          is consistent with FISMA requirements, OMB policy, and applicable NIST
          guidelines.
      •   The agency has established a POA&M program that is consistent with FISMA
          requirements, OMB policy, and applicable NIST guidelines and that tracks
          and monitors known information security weaknesses.
      •   The agency has established and is maintaining a remote access program that is
          generally consistent with NIST and OMB FISMA requirements.
      •   The agency established and is maintaining an entity-wide business
          continuity/disaster recovery program that is generally consistent with NIST
          and OMB FISMA requirements.
      •   The organization has established a program to oversee systems operated on its
          behalf by contractors or other entities, including organization systems and
          services residing in the cloud external to the organization.
      •   The agency has established and maintains a capital planning and investment
          program for information security.


                                             20

                                     UNCLASSIFIED
                                       UNCLASSIFIED


Use of Computer-Processed Data

        During the audit, we utilized computer-processed data to obtain samples and information
regarding the existence of information security controls. Specifically, we obtained data extracted
from Microsoft’s Windows Active Directory and BBG’s human resources system to test user
account management controls. We assessed the reliability of computer-generated data primarily
by comparing selected data with source documents. We determined that the information was
reliable for assessing the adequacy of related information security controls.




                                               21

                                       UNCLASSIFIED
                                       UNCLASSIFIED


                                                                                    Appendix B

    B. Followup of Recommendations From the FY 2011 Evaluation of the
       Broadcasting Board of Governors Information Security Program
        The audit team reviewed actions implemented by management to mitigate the findings
identified in the FY 2011 evaluation of BBG’s Information Security Program. The current status
of each of the recommendations follows:

Recommendation 1. We recommend that the Chief Information Officer ensure that the selected
system inventory management software tool is acquired and implemented and a process is
developed to update, not less than annually, the Broadcasting Board of Governors’ (BBG)
system inventory when changes are made to those information systems operated by or under the
control of BBG or by third-party contractors or agencies on behalf of BBG, as required by the
National Institute of Standards and Technology Special Publication 800-53, Revision 3.

Status: Closed from FY 2011 report; this repeat recommendation has become Recommendation
8 (Finding H) in the FY 2012 report.

Recommendation 2. We recommend that the Chief Information Officer complete the
development and implementation of security configuration procedures and periodically assess
compliance with the implemented procedures, as required by the National Institute of Standards
and Technology Special Publication 800-53, Revision 3.

Status: Closed from FY 2011 report; this repeat recommendation has become Recommendation
1 (Finding A) in the FY 2012 report.

Recommendation 3. We recommend that the Chief Information Officer develop procedures to
ensure that security controls are properly managed and maintained for all systems that access the
Broadcasting Board of Governors network as required by the National Institute of Standards and
Technology Special Publication 800-53, Revision 3.

Status: Closed from FY 2011 report; this repeat recommendation has become Recommendation
2 (Finding B) in the FY 2012 report.

Recommendation 4. We recommend that the Chief Information Officer update the security
awareness training policy requiring all new personnel to attend initial and refresher security
awareness training and enforce consequences of noncompliance for personnel who do not
successfully complete the security awareness training, as required by the National Institute of
Standards and Technology Special Publication 800-53, Revision 3, and the Broadcasting Board
of Governors information security policies.

Status: Closed from FY 2011 report; this repeat recommendation has become Recommendation
5 (Finding E) in the FY 2012 report.

                                               22

                                       UNCLASSIFIED
                                        UNCLASSIFIED


Recommendation 5. We recommend the Chief Information Officer develop a policy requiring
responsible managers to review and update Plans of Action and Milestones and assess the
timeliness of corrective actions to determine whether additional resources may need to be
allocated to prevent delays, as required by the Office of Management and Budget Memorandum
M-11-33, FY 2011 Reporting Instructions for the Federal Information Security Management Act
and Agency Privacy Management, September 14, 2011.

Status: Closed. The Plans of Action and Milestones (POA&M) policy was revised in February
2012 to require system owners to review progress toward remediating security weaknesses
identified in their systems and updating the POA&M accordingly. We observed minutes from
meetings reviewing the statuses of correction actions, the status reports provided by system
owners, and the corresponding POA&Ms.

Recommendation 6. We recommend that the Chief Information Officer implement the process
and software tool to assess the adequacy of the security configurations of third-party devices that
request access to the Broadcasting Board of Governors network and grant access only to properly
configured devices, as required by the National Institute of Standards and Technology Special
Publication 800-53, Revision 3.

Status: Closed from FY 2011 report; this repeat recommendation has become Recommendation
7 (Finding G) in the FY 2012 report.

Recommendation 7. We recommend that the Chief Information Officer establish policies and
procedures to restrict the use of guest, test, and shared user accounts to ensure user
accountability in accordance with the National Institute of Standards and Technology Special
Publication 800-53, Revision 3.

Status: Closed. We observed that policies and procedures had been updated in March 2012 to
limit and manage the use of guest, test, and shared user accounts. We also reviewed a sample of
the quarterly reports detailing the required existence of guest, test, and shared user accounts.

Recommendation 8. We recommend that the Chief Information Officer establish policies and
procedures requiring system owners to notify account managers when information system users
are terminated, transferred, or information system usage or need-to know/need-to-share changes
are made, in accordance with the National Institute of Standards and Technology Special
Publication 800-53, Revision 3.

Status: Closed from FY 2011 report; this repeat recommendation has become Recommendation
3 (Finding C) in the FY 2012 report.

Recommendation 9. We recommend that the Chief Information Officer implement procedures
to monitor and review compliance with the password reset procedures to ensure that Help Desk
personnel enforce the password reset policy, which requires the requesting user to be physically
present to allow Help Desk personnel to verify the user’s identity.


                                                23

                                        UNCLASSIFIED
                                        UNCLASSIFIED


Status: Closed. The password reset procedures were refined to include user identification
measures, and training was provided to Help Desk personnel in May 2012. During our testing
of the procedures, we requested a password reset. No exceptions were noted.

Recommendation 10. We recommend that the Chief Information Officer develop and
implement policies and procedures to perform routine vulnerability assessments for all major
systems and general support systems, as required by the National Institute of Standards and
Technology Special Publication 800-53A.

Status: Closed. We observed that policies and procedures had been implemented in February
2012 to perform monthly vulnerability assessments for all major systems and general support
systems. Additionally, we requested and inspected a sample of the monthly vulnerability
assessment reports.

Recommendation 11. We recommend that the Chief Information Officer ensure that the
Director of Disaster Recovery and Business Continuity develop and implement contingency
planning policies and procedures; develop contingency plans for the Broadcasting Board of
Governors (BBG) infrastructure (network) and its major systems; provide contingency planning
training to personnel who are responsible for the recovery of the network and systems; perform
periodic testing of BBG’s contingency plans; and update the plan based on lessons learned, as
required by the National Institute of Standards and Technology Special Publication 800-34,
Revision 1.

Status: Closed from FY 2011 report; this repeat recommendation has become Recommendation
9 (Finding I) in the FY 2012 report.

Recommendation 12. We recommend that the Chief Information Officer develop and
implement a complete and comprehensive process that meets United States-Computer
Emergency Readiness Team’s (US-CERT) requirements for identifying, reporting, and resolving
computer security incidents in a timely manner, as required by the National Institute of Standards
and Technology Special Publication 800-61, Revision 1, and Office of Management and Budget
Memorandum M-07-16. Also, BBG’s Computer Security Incident Management Policy should
be revised to include clear and comprehensive guidance for the identification, prioritization, and
notification of security incidents, both internally and to US-CERT. The security incident
identification and notification procedures should also specifically address the procedures for
responding to security incidents involving the breach of personally identifiable information
whether in electronic or paper format.

Status: Closed. We observed that the incident response policy had been revised in January
2012 to include the US-CERT requirements for identifying, reporting, and resolving computer
security incidents, inclusive of security incidents involving the breach of personally identifiable
information.




                                                 24

                                        UNCLASSIFIED
                                                      UNCLASSIFIED


                                                                                                            Appendix C

                     C. Broadcasting Board of Governors Response


Broadcasting Board ofGovernotS

INTERNATIONAL BROADCASI1NG BUREAU




                                                             JIOV -6       2012


        Mr. Harold W. Geisel
        Deputy Inspector General
        Department of State


        Dear Mr. Geisel:


        This is in response to the e-mail from Ms. Amy Conigliaro, dated October 22, 2012, regarding
        the Office of inspector General (OJG) draft report titled, "Audit of the Broadcasting Board of
        Governors lnfonnation Security Program," Report Number AUD-IT-XX-XX, issued October
        2012.


        The Broadcasting Board of Governors (BBG) has reviewed the report and provides its comments
        to address Recommendations I through 9 as noted on the enclosure.

        We thank you for the opportunity to respond to the report. If you have any questions, please feel
        free to contact Ms. Barbara Tripp at (202) 203-4609 or Ms. Kelu Chao, Director, IBB Office of
        Perfonnance Review at (202) 203-4800.


                                                       Sincerely,




                                             �
                                             U
                                                      S&u�
                                                       Richard Nl . Lobo
                                                       Director


        Enclosure: As Stated




                        330 Independence Avenue. SW          Washington, DC 20237




                                                                  25

                                                      UNCLASSIFIED
                                     UNCLASSIFIED




                                                                                         Enclosure



                            BBG's Response to OIG's Draft Rcp011
       "Audit of the Broadcasting Board of Governors Int(wmation Secudty P•·ognun,"
                    Report Nwnber AUD-IT -XX-XX, Issued October 2012



BBG Conmtents:


1l1e Broadcasting Board of Governors (BBG) believes significant progress has been made over
the past year in complying with FISMA requirements. In light of that progress, the BBG
requests that the OIG consider adding the following bullet points to the management control
improvements listed on page one of the Executive Summary      as   follows:


   •    Installed and configured an inventory management tool.
   •    Developed and implemented policies and procedures for Plans of Action and Milestones
        (POA&M).
   •    Ensured adherence to password reset policies and procedures.
   •    Revised the BBG Incident Response Policy to align with guidance from the National
        Institute of Standards and Technology (NIST).


Recommendation 1: We recommend that the Chieflnfo1mation Officer ensure that security
configuration standards and procedures are completed, as required by the National Institute of
Standards and Technology Special Publication 800-53, Revision 3.


BBG Response (October 31,2012): BBG concu•·s. The BBG has c1·eated and filled a
Change Manager Position within TSI's IT Directorate to address configuration standar·ds
and procedures. Through Iris effor1s, TSI is adopting change management policy and
processes consistent with Information Technology Information Libmry standards.
Additionally, TSI has acquired Micr·osoft's System Center Configuration Manager (MS
SCCM) for configuration manag<'ment of agency ser-vers and workstations. Configuration
planning for the MS SCCM implementation is currently wtdenvay with full production
system utilization expected by March 31, 2013. The CIO will oversee testing of tins tool
and the development of associated processes.


Recommendation 2: We recommend that the Broadcasting Board ofGovemors develop and
implement policies to require all agency entities with systems that coi111ect to the Broadcasting
Board of Governors network to abide by the secttrity policies and requirements established by
the Broadcasting Board of Govemors Infonnation Teclmology Department and grant the Chief
lnfonnation Officer the necessary authority to enforce consequences for noncompliance.


BBG Response(October 31, 2012): BBG concw-s. The CIOwill att.empt to stnngthen the
IT secUJity controls over aU Fede1-al BBG elements that connect to the BBG's Wide A•·ea
Networ-k (WAN). These BBG Federal clements include the Intemational Broadcasting
Bureau, the Otlice of C uba ll•·oadcasting, and the Voice of America. If full compUance


                                                 1




                                               26

                                     UNCLASSIFIED
                                       UNCLASSIFIED




cannot be met, compensating contr·ols will be put in place to ensure an acceptable Iisk level
for the BBG. The CIO will continue t.o assess progress.


Recommendation 3: We recommend that the Chief Inf01mation Officer ensure that user
accounts   are   properly configured and maintained in accordance with the Broadcasting Board of
Govemors policies. lf the Broadcasting Board of Govemors detem1ines that exceptions to the
implemented policies may be necessary, the Broadcasting Board of Govemors should identify,
assess, and document the associated risks. Ifthe Broadcasting Board of Govemors further
dete1mines that the identified risks are acceptable, the exceptions should be documented and
a pproved by infonnation teclmo logy management.


BBG Response(October 31, 2012): BBG concm-s. The CIOwill review and strengthen IT
processes t.hat manage use•· accounts. The HBG st•·ongly believes that the account
irregularities the OIG obsen,ed •·esulted from tempo.-ary tmnsition issues caused by
migration of agency mail accow1ts and VPN token vendors. The BBG expects to be i n full
compliance ofthjs recommendation by .January 31,2013.


Recmmnendation 4: We recommend that the Chief Inf()Jmation Officer ensure that procedures,
as stated within the Broadcasting Board of Govemors Computer Security incident Management
Policy, are followed to ensure that security incidents are properly reported, as required by the
United States Computer Emergency Readiness Team's Federal Incident Reporting Guidelines.


BBG Response(October 31,2012): BBG concm-s. The CIO has taken steps to implement
this policy immediately.


Recmmnendation 5: We recommend that the Chief Inf01mation Officer develop and implement
a fonnal sanction process for personnel who do not successfully complete the security awareness
training, as required by the National Institute of Standards and Technology Special Publication
800-53, Revision 3.


BBG Response (October 31,2012): BBG concm-s. The CIO and BBG's leadei-ship team
have taken steps to implement sbict discipline measures effective tllis year with the cul'l'ent
cycle of the IT secuiity awareness training. On October 31, 2012, the security awareness
traiJling deadline, TSI's IT DiJ·ectorate notified all BBG usei"S and their diJ·ect supervisOI"S
that IT is prepared to disable their computer· accounts if employees fail to complete the
required traming by November 2, 2012. The BBG provided the extension in light of
potential hanlsllips created by Hurricane Sandy. BBG's current compliance rate is 92%
versus 25% in 2011.


Please also note that senior management has been apprised of the email message sent to
impacted employees.


Recommendation 6: We recommend the Chief lnfonnation Ofticer ensure that the
Broadcasting Board ofGovemors Plans of Actions and Milestones program is developed in
accordance with its policy, whjch requires the Broadcasting Board ofGovemors Plans of Action



                                                  2




                                                 27

                                       UNCLASSIFIED
                                         UNCLASSIFIED




and Milestones to include the data elements found in Office of Management and Budget
Memorandum M-02-01.


BBG Response(October 31, 2012): BBG concm'S. The CIOwill expand on the data
elements contained in the POA&M tracking sheet as etl(wts continue to mature int.ernal IT
project governance. The March 2013 quarterly cycle of POA&M tr·acking sheets will
reflect this improvement.


Recommendation 7: We recommend that the Chief l nfonnation Officer implement procedures
to assess the adequacy of the security c onfigurations of third party devices that request access to
                                                                  -




the Broadcasting Board ofGovemors network and grant access o nl y to pro perly configured
devices,   as   required by the Nationallnstitute of Standards and Teclmology Special Publication
800-53, Revision 3.


BBG Response(October 31, 2012): BBG concm'S. The CIOwill develop the process and
initiate planning and testing ofthe tool p•·ocu•·ed to assess the adequacy ofthe securit:y
configurations oftltil·d-part.y devices that •·equest access (generally tlu·ough a Virtual
Private Network [ V PN]) to the BUG network. The CIO will grant access only to those
whose configm-ations are deemed suflicient by Ma1·ch 31, 2013.


Recmmnendation 8: We recommend that the Chief Inf01mation Oft'icer ensure that the
lnfom1ation Teclmology Director create and impleme nt a standardized process to collect
inf01mation used to develop and subsequently update the Broadcasting Board of Governors
system inventory, and update the general supp01t system's security phm control for Information
System Component Inventory (CM-8), specifically the organizationally defined frequency of
inventory assessments,     as   required by tl1e National Institute of Standards and Teclmology Special
Publication 800-53, Revision 3.


BBG Response(October 31, 2012): BBG concm'S. The BBG has acquired an n
                                                                     i ventory
management software tool and is c un·ently establishing internal tracking processes.
Significant progress has been made, but full implementation is not expected mttil Marrh
31, 2013. The CIO will continue to oversee this effort.


Recmmnendation 9: We recommend that the Chief Information Officer ensure that the Director
of Disaster Recovery and Business Continuity develop and implement contingency planning
policies and procedures, develop contingen cy plans for the Broadcasting Board of Govemors
infrastmcture (network) and its major systems, provide contingency plarming training to
personnel who are responsible for the recovery of the network ar1d systems, perform periodic
testing ofthe Broadcasting Board ofGovemors contingency plans, and update the plan based on
lessons learned, as required by the National Institute of Standards and Teclmology Special
Publication 800-34, Revision 1.


BBG Response(October 31, 2012): BBG concm'S. The BBG agrees t.o further develop
contingency plans and inc•·ease im•estments in oflsite systems to be used for business
continuity. To support and lead tllis effmi, the CIO is attempting to fill a Disaster
Recovery and Uusiness Continuity Manager position. If full complia.nce rannot be met,


                                                     3




                                                    28

                                         UNCLASSIFIED
                                   UNCLASSIFIED




compensating contr·ols will be put in place to eJlSUI"C an acceptable 1isk level for BBG. The
CIO will continue t.o assess progress.




                                              4




                                             29

                                   UNCLASSIFIED
